TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                Desktop and Laptop
                          Software License Management
                        Is Not Being Adequately Performed



                                           June 25, 2013

                              Reference Number: 2013-20-025




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                         HIGHLIGHTS


DESKTOP AND LAPTOP SOFTWARE                         was unable to provide us with essential licensing
LICENSE MANAGEMENT IS NOT BEING                     records for properly managing licenses on 24 of
ADEQUATELY PERFORMED                                27 software products reviewed during this audit.
                                                    TIGTA also found that the IRS does not have
                                                    specialized software license tools designed to
Highlights                                          be the repository for software and software
                                                    license deployment. These tools should be
Final Report issued on June 25, 2013                used to discover, track, manage, and detect
                                                    inactive usage of software licenses. Finally, the
Highlights of Reference Number: 2013-20-025         IRS does not have an accurate inventory of
to the Internal Revenue Service Chief               software and related licenses that contains
Technology Officer.                                 licensing models applicable to each software
                                                    product which links data on the licenses
IMPACT ON TAXPAYERS                                 purchased and deployed with the purchase
Computer software is typically protected by         costs, procurement information, and monitoring
Federal copyright law, which requires users of      and usage data.
software programs to have a license authorizing
                                                    WHAT TIGTA RECOMMENDED
such use. Software licenses are legal rights to
use software in accordance with terms and           TIGTA recommended that the Chief Technology
conditions specified by the software copyright      Officer develop policies and guidance and roles
owner. Software license management at the           and responsibilities for managing software
IRS is not being adequately performed. Efficient    assets and licenses; implement a specialized
and cost-effective management of the IRS’s          software license management tool and develop
software assets is crucial to ensuring that         detailed standard operating procedures for using
information technology services continue to         the tool; develop an inventory of software
support the IRS’s business operations and help      licensing data and maintain the inventory with a
it to provide services to taxpayers efficiently.    specialized software license tool; and maintain
                                                    data in the inventory that the IRS can use to
WHY TIGTA DID THE AUDIT                             more effectively manage software spending.
This audit was initiated to determine whether the   In their response to the report, IRS officials
IRS is adequately managing software licenses.       agreed with all six recommendations with slight
Federal requirements and recommended                modifications on four of them. The IRS plans to
industry best practices govern the use and          use best practices to develop enterprisewide
management of software licenses. The                software license management policies,
objective of software license management is to      procedures, roles, and responsibilities; identify
manage, control, and protect an organization’s      and implement a standard enterprise toolkit with
software assets, including management of the        standard operating procedures for the
risks arising from the use of those software        management of software licenses; and collect
assets. The proper management of software           software inventory data from the toolkit in a
licenses helps to minimize risks by ensuring that   central data repository.
licenses are used in compliance with licensing
agreements and cost-effectively deployed, and
that software purchasing and maintenance
expenses are properly controlled.
WHAT TIGTA FOUND
The IRS is not adequately performing software
license management and is not adhering to
Federal requirements and recommended
industry best practices. The IRS does not have
enterprisewide or local policies, procedures, and
requirements for software license management.
The User and Network Services organization
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 25, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Desktop and Laptop Software License
                             Management Is Not Being Adequately Performed (Audit # 201220018)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 management of desktop and laptop software licenses. We performed this review to determine
 whether the IRS is minimizing risks by ensuring that software product licenses are used in
 compliance with licensing agreements and cost-effectively deployed, and that software
 purchasing and maintenance expenses are properly controlled. This review is included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Achieving Program Efficiencies and Cost Savings.
 In its response, the IRS indicated that the audit examined the IRS’s desktop and laptop
 environment, which the IRS considers a part of its overarching approach for enterprise software
 governance. Thus, its corrective actions addressing recommendations include desktop and
 laptop software licensing as a subset of the enterprise. TIGTA disagrees with this statement.
 During the audit period, the IRS did not have an overarching approach for enterprise software
 governance or the assimilation of Information Technology Infrastructure Library (ITIL) Maturity
 Level 3 processes regarding centralizing the responsibility for software license management.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services).
                                Desktop and Laptop Software License Management
                                       Is Not Being Adequately Performed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Software License Management Policies and Procedures
          Have Not Been Established .......................................................................... Page 3
                    Recommendations 1 and 2: .............................................. Page 5

          Processes for Using Software License Tools Do Not
          Adhere to Federal Requirements and Best Practices .................................... Page 5
                    Recommendation 3:........................................................ Page 7

                    Recommendation 4:........................................................ Page 8

          Processes for Software License Inventories Do Not
          Adhere to Federal Requirements and Best Practices .................................... Page 8
                    Recommendation 5:........................................................ Page 9

                    Recommendation 6:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Glossary of Terms ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
        Desktop and Laptop Software License Management
               Is Not Being Adequately Performed




                 Abbreviations

CTO        Chief Technology Officer
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
IT         Information Technology
ITIL®      Information Technology Infrastructure Library
SAM        Software Asset Management
UNS        User and Network Services
                              Desktop and Laptop Software License Management
                                     Is Not Being Adequately Performed




                                               Background

Computer software is typically protected by Federal copyright law, which requires users of
software programs to have a license authorizing such use. Software licenses are legal rights to
use software in accordance with terms and conditions specified by the software copyright owner.
Rights to use software are separate from the legal rights to the software itself, which are
normally kept by the software manufacturer or other third party. Licenses may be bought and
are normally required whenever externally acquired software is used, which will typically be
when the software is installed on a computer (or when executed on a computer even if installed
elsewhere such as on a server).
Software licenses are one of the main issues addressed by software asset management. Software
asset management is a process for tracking and reporting the use and ownership of software
assets. Forrester Research Inc.1 defines software asset management as:
           The systematic automation of processes to reconcile software licenses and statements of
           entitlement, maintenance contracts, and original media with installed software and those
           processes for discovering deployed software assets; to reconcile the assets to their
           licenses, maintenance contracts, and definitions of entitlement; and to report on
           compliance and discrepancies in such a way as to minimize the risk of legal action by
           software vendors as well as loss of service to users or of reputation in the wider world.
The objective of software license management is to manage, control, and protect an
organization’s software assets, including management of the risks arising from the use of those
software assets. Proper management of software licenses helps to minimize risks by ensuring
that licenses are used in compliance with licensing agreements and cost-effectively deployed,
and that software purchasing and maintenance expenses are properly controlled.
Software license management can be difficult because:
          A large amount of information on software and hardware must be discovered and stored.
          The data need to be kept current on more than an annual basis.
          The ability to identify installed software and software license usage may be impacted by
           the complexities with which software is installed and licenses are used.
          Licensing models and definitions may significantly differ depending on the software
           product and vendor.


1
    See Appendix IV for a glossary of terms.
                                                                                              Page 1
                       Desktop and Laptop Software License Management
                              Is Not Being Adequately Performed



The Internal Revenue Service (IRS) reported that in Fiscal Year 2011 it spent $235 million on
computer software products. Efficient and cost-effective management of the IRS’s software
assets is crucial to ensuring that information technology services continue to support the IRS’s
business operations and help it to provide services to taxpayers efficiently.
Federal requirements established by Executive Orders, the Federal Chief Information Officer
Council, the National Institute of Standards and Technology, and the Department of the Treasury
as well as recommended industry best practices govern the use and management of software
licenses. These sources provide guidance to ensure that software licenses are 1) efficiently
purchased and are not being unused or underused, 2) used in compliance with copyright laws,
and 3) inventoried through the use of adequate recordkeeping systems that control and track the
use of licenses.
This review was performed at the User and Network Services (UNS) organization’s Software
Asset Management (SAM) office in Fresno, California, during the period June through
December 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 2
                              Desktop and Laptop Software License Management
                                     Is Not Being Adequately Performed




                                    Results of Review

Software License Management Policies and Procedures Have Not
Been Established
Executive Order 13103, Computer Software Piracy, requires and Information Technology
Infrastructure Library’s (ITIL®) best practices recommend the development of software license
management policies and procedures and roles and responsibilities. The ITIL and industry best
practices recommend a centralized, enterprisewide management structure for software asset
management. These best practices indicate that some of the most significant benefits of software
asset management, both cost and risk management benefits, come from managing software on an
enterprisewide basis. An enterprisewide management structure can actively manage software
assets to know the location, configuration, and usage history of every product. In addition, an
enterprisewide management structure supported by an enterprisewide inventory and automated
software license management tools can better provide procurement staff with the detailed and
accurate information needed to negotiate flexible, cost-effective contracts and form the basis for
cost-reduction projects such as platform stabilization, volume bundling, securing longer term
agreements, and vendor or hardware consolidation. In September 2010, the IRS’s Chief
Technology Officer (CTO) outlined a goal to have the Information Technology (IT) organization
implement the ITIL best practices over the next several years. The IRS reported that the IT
organization had achieved ITIL Maturity Level 3 in October 2012.
The IRS does not have enterprisewide policies, procedures, and requirements for software
license management. The IRS does not have a centralized, enterprisewide organizational
structure for managing software licenses, and decentralized units within the IT organization that
manage software licenses also do not have local software licensing policies and procedures. The
UNS organization within the IT organization, which includes the desktop environment, is
responsible for managing one of the largest software license inventories in the IRS, and it does
not have policies and procedures for managing software licenses.
The IRS has defined software asset and license management roles and responsibilities only for
the Chief Information Officer/CTO in Internal Revenue Manual (IRM) 10.8.2, IT Security Roles
and Responsibilities.2 IRM 2.14.1, Asset Management, Information Technology (IT) Asset
Management,3 does not provide any additional roles and responsibilities for software asset and
license management. The IRS also does not have software asset and license management roles


2
    Dated April 29, 2011.
3
    Dated November 8, 2011.
                                                                                           Page 3
                            Desktop and Laptop Software License Management
                                   Is Not Being Adequately Performed



and responsibilities for the organizational entities that conduct software asset and license
management.
The UNS organization was unable to provide us with essential licensing records for properly
managing the licenses on 24 of 27 judgmentally selected4 software products we reviewed during
this audit. The UNS organization could not provide licensing agreements for 23 products,
documentation for the number of licenses purchased for 15 software products, and license
deployment documentation for seven software products.
Our review of documentation provided determined that the UNS organization is not adequately
managing software licenses. Specifically, of the 27 software products reviewed, we found:
        Twenty-one software products did not have an unlimited software license. For 13 of the
         21, there were records on either licenses purchased or deployed. We reviewed these
         records and determined that for three of the 13, the IRS deployed more licenses than it
         had purchased, and for eight of the 13, the IRS had not used licenses in a cost-effective
         manner because it deployed significantly fewer licenses than it had purchased.
        For eight of the 21 software products that did not have an unlimited software license, we
         could not determine whether licenses were over- or under-deployed because the IRS
         could not provide us with records showing either the number of licenses purchased or
         deployed.
        For five software products with unlimited software licenses, there were records on the
         number of licenses deployed. For one of the five, the IRS had potentially overspent on
         unlimited software licenses by not needing to deploy a significant number of licenses.
        Six of 27 software products had more than one license deployment record. For all six,
         the IRS had conflicting figures on the number of licenses deployed and had not
         performed reconciliations to research and identify the differences.
The IRS does not have enterprisewide or local software license management policies and
procedures, an enterprisewide license management structure, or roles and responsibilities for the
organizational entities that conduct software license management because the IRM section
covering a software management program is under development. IRM 2.14.1 states (in
Section 13.17) that software management is under development and that procedures are in the
process of being defined.
Until the IRS implements an effective program to manage software licenses, the IRS is incurring
increased risks in managing software licenses. These risks include: 1) not complying with

4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We originally selected a judgmental sample of 30 software products but deleted three because we subsequently
learned that one product was freeware, another product was internally developed, and another product was not
renewed for use in Fiscal Year 2012. See Appendix I for the sampling methodology.
                                                                                                              Page 4
                              Desktop and Laptop Software License Management
                                     Is Not Being Adequately Performed



licensing agreements that could result in embarrassment, legal problems, and financial liability;
2) not using licenses in the most cost-effective manner; and 3) not effectively using licensing
data to reduce software purchase and software maintenance costs.

Recommendations
To help ensure that the IRS has software license management policies and procedures and
complete roles and responsibilities that adhere to Federal requirements and recommended
industry best practices, the CTO should:
Recommendation 1: Develop policies and guidance in the IRM for managing software assets
and licenses using ITIL best practices.
          Management’s Response: The IRS agreed with this recommendation. The IRS will
          utilize best practices such as the ITIL to develop policies and guidance for managing
          software and licensing from an enterprise perspective in support of and aligned to
          IRM 2.14.1. The IRS will ensure that policies and guidance are aligned to and include
          the protocols, functions, and decisionmaking outcomes across Associate Chief
          Information Officer and other enterprise units by implementing an Enterprise Software
          Governance Board.
Recommendation 2: Develop UNS organization roles and responsibilities in the IRM for
software asset and license management.
          Management’s Response: The IRS agreed with this recommendation with a slight
          modification. The IRS will develop enterprisewide roles and responsibilities in the IRM
          for software asset and license management that includes the UNS organization. This
          slight modification to the recommendation will avoid inconsistent processes that may
          yield different results and information.

Processes for Using Software License Tools Do Not Adhere to
Federal Requirements and Best Practices
The National Institute of Standards and Technology Special Publication 800-53, Recommended
Security Controls for Federal Information Systems and Organizations,5 and Treasury Directive
Publication 85-01, Treasury IT Security Program,6 require and ITIL and industry best practices
recommend implementing enterprisewide software asset discovery, network scanning, license
management, and license metering tools. Software asset discovery tools are used to identify
installed software and collect relevant details about each installed software product. Network
scanning tools are used to detect and remove any unauthorized or unlicensed installed software.

5
    Dated August 2009.
6
    Dated November 3, 2006.
                                                                                            Page 5
                        Desktop and Laptop Software License Management
                               Is Not Being Adequately Performed



Software license management tools help to ensure compliance with licensing agreements by
tracking license usage, linking upgrades to original licenses, linking licenses bought to licenses
used, and managing the stock of unused licenses. Metering tools help to ensure that licenses are
used cost effectively by detecting installed software that is not being used so that the licenses can
be redeployed to other users to avoid paying for additional licenses when they are not needed.
Even though the IRS does not have written policies and procedures on software license
management, through interviews we obtained information on the approach or processes used by
the IRS to manage software licenses and compared them to Federal requirements and
recommended best practices. Software licenses in the IRS are tracked and managed by
decentralized groups that use manual and non-manual techniques, queries, spreadsheets, record
systems, scanning tools not specifically designed for software license management to gather
rough software data, utilities unique to the software product being tracked, and manual
calculations to maintain their own software licensing records.
Due to the lack of an IRS enterprisewide structure for managing software licenses, we focused
our testing on the SAM group within the UNS organization. The SAM group is responsible for
managing the IRS’s Common Operating Environment and above-baseline desktop and laptop
software solutions. The SAM group, which is responsible for managing one of the largest
software license inventories in the IRS, performs limited software licensing management. The
SAM group does not have specialized software license tools designed to discover, track, manage,
detect inactive usage and be the repository for software and software license deployment. The
SAM group manually tracks the number of licenses deployed against the number bought. When
an employee needs a license, the SAM group verifies that unused licenses are available before
issuing the requested license. If no licenses are available, it will request the purchase of
additional licenses. When a computer is turned in, the SAM group will recover licenses and
place the erased computer and recovered licenses into inventory. When an employee needs a
new computer, the SAM group reimages the computer from inventory and redeploys licenses
onto the reimaged computer. The SAM group is unable to scan computers to discover the
licenses actually deployed and to identify the use of unauthorized software. In addition, the
SAM group does not monitor software usage to determine whether licenses deployed are not
being used and could be recycled to be made available to other employees. Three additional
groups we reviewed that manage software licenses also do not use software tools to manage
license compliance and deployment.
The SAM group has an ongoing project for developing a comprehensive software licensing
management process that will include a specialized software license management tool. It plans
to initially use the tool to manage licenses for the Common Operating Environment and
above-baseline desktop and laptop software products that it is currently responsible for
managing. The SAM group plans for the tool to be a centralized inventory system for software
inventory and software license management. It plans to 1) use the tool to track, manage, and be
the repository for software and software license deployment and usage, 2) use the tool’s network

                                                                                              Page 6
                        Desktop and Laptop Software License Management
                               Is Not Being Adequately Performed



scanning capabilities to perform software and licensing discovery, and 3) reconcile the scanned
results of installed software and deployed licenses with contracted licenses. The tool is currently
in the testing environment and will then move into the system testing phase. The SAM group
expects it to be ready for full implementation by September 2013.
In addition, the SAM group is developing draft standard operating procedures to be used for
managing the Common Operating Environment and above-baseline desktop and laptop software
licenses when the tool is implemented. The procedures will outline how the group plans to use
the tool to scan computers for collecting data on installed software and match that data against
authorized software, licenses, and user or computer entitlements. The matches are designed to
identify licensing conditions that pose a risk to software license compliance and to the
cost-effective use of licenses, such as 1) installed software that the IRS is not licensed to have,
2) installations of licensed software that were not authorized to have been installed, and
3) installed software that is not being used and for which the licenses could be redeployed to
other users. The SAM group also stated that roles and responsibilities will be developed for the
project using the ITIL best practices. However, the plans that are being developed by the SAM
group are only for the Common Operating Environment and above-baseline desktop and laptop
software licenses, not an enterprisewide organizational structure for managing all of the IRS’s
software and licenses. In the future, the SAM group indicated that the IRS will consider the
possibility of extending the new application’s software license management capability to
additional software products used on servers, network devices, and other computers for use by
the staff that manage licenses in the Enterprise Operations, Enterprise Networks, and
Applications Development organizations.
The IRS’s IT management has not identified and implemented automated software license tools
for the enterprisewide management of software licenses, and the IRM section covering the
software management program is under development. As previously stated, the IRS was unable
to provide us with the essential licensing records for properly managing the licenses for 24 of the
27 software products we reviewed during this audit. Until the IRS implements enterprisewide
software license management tools and processes to conduct software license management, the
IRS is incurring increased risks in managing software licenses.

Recommendations
To help ensure that the UNS organization has processes for using software license tools that
adhere to Federal requirements and recommended best practices, the CTO should:
Recommendation 3:  Develop detailed standard operating procedures for using software
licensing tools to manage software licenses.
       Management’s Response: The IRS agreed with this recommendation. As part of
       the IRS’s enterprise approach, it will develop standard operating procedures for using


                                                                                             Page 7
                          Desktop and Laptop Software License Management
                                 Is Not Being Adequately Performed



        existing and/or other toolsets as appropriate to manage software licensing for the
        enterprise.
Recommendation 4: Implement a specialized software license tool designed to discover,
track, and manage software license deployment and usage.
        Management’s Response: The IRS agreed with this recommendation with a slight
        modification. Based on experience, there is no single tool that can discover, track, and
        manage software license deployment and usage. As such, the IRS will identify and
        implement a standard enterprise toolkit, which may include multiple tools, to accomplish
        the recommendation.

Processes for Software License Inventories Do Not Adhere to Federal
Requirements and Best Practices
Executive Orders,7 the Department of the Treasury Directive 85-02, Software Piracy Policy,8 and
IRM 10.8.2 require and ITIL and industry best practices recommend creating and maintaining
accurate enterprisewide inventories of installed software and licenses. These inventories should
contain licensing models applicable to each software product and link the data on licenses bought
and deployed, including costs. This will help ensure that software purchased is not unused or
underutilized and that software is used in compliance with copyright laws.
Interviews with the SAM group and the review of documents provided determined that the IRS
does not have an accurate inventory of its software and related licenses. Additionally, the
inventory records do not contain licensing models applicable to each software product that links
data on the licenses purchased and deployed with the purchase costs, procurement information,
and monitoring and usage data. The only location where we could identify an IRS list of the
software it owns was within the IRS’s Application Registration Database. The Application
Registration Database is not an authoritative database for software inventory, and licensing
information within the database cannot be confirmed as complete and accurate. The Application
Registration Database is a control mechanism to ensure that required testing (integration,
compatibility, and security testing) for all new desktop and laptop software products is
performed before the software is placed into the production environment. Although it contains
licensing data, the data are entered at the beginning of the request and testing process and may
not be updated when procurement and licensing information changes.
The IRS does not have an enterprisewide inventory of software and software licensing data as a
result of not having automated software licensing tools needed to compile such an inventory and
because the IRM section covering a software management program is under development. As

7
  Executive Order 13103 (Sept. 30, 1998), Computer Software Piracy and Executive Order 13589, Promoting
Efficient Spending (Nov. 09, 2011).
8
  Dated May 4, 2010.
                                                                                                      Page 8
                        Desktop and Laptop Software License Management
                               Is Not Being Adequately Performed



previously stated, our review of software license documentation identified several instances of
software licenses not being adequately managed. For example, for eight of 21 products reviewed
that did not have unlimited licenses, we could not determine whether licenses were over- or
under-deployed because the IRS could not provide us with records showing either the number of
licenses purchased or the number of licenses deployed. Until the IRS develops an enterprisewide
software licensing inventory, the IRS is incurring increased risks in managing software licenses.
In addition, the lack of an enterprisewide inventory with comprehensive data on all software and
software licensing impedes the ability of the IRS to more thoroughly analyze the relationships
among its software license agreements and vendors to more cost-effectively buy software
licenses and maintenance. In an effort to offset budget constraints, the Strategy and Planning
division within the IT organization established a Vendor and Contract Management office with a
mandate to create savings by promoting innovative sourcing alternatives that generate the same
or additional value while minimizing risk. Because the IRS does not have adequate software
licensing tools and inventories, the Vendor and Contract Management office has to improvise
using various tools and data and search various record systems to manually compile the hardware
and software data and then perform additional ad hoc calculations to conduct its software
licensing analysis. The Vendor and Contract Management office has achieved some software
licensing savings during the last two years, but we believe that better software license inventories
and tools would enable it to identify additional savings opportunities.

Recommendations
To help ensure that the UNS organization has processes for software license inventories that
adhere to Federal requirements and recommended best practices, the CTO should:
Recommendation 5: Develop an inventory of software licensing data and maintain the
inventory with a specialized software license tool designed to discover, track, and manage
software license deployment and usage.
       Management’s Response: The IRS agreed with this recommendation with a slight
       modification. The IRS has developed a software inventory and will leverage this as a
       starting point; however, based on experience, there is no single tool that can discover,
       track, and manage software license deployment and usage. As such, the IRS will identify
       and implement a standard enterprise toolkit, which may include multiple tools, to
       accomplish this recommendation. Data collected via the toolkit will be consolidated and
       maintained in a central data repository.
       Office of Audit Comment: The IRS does not have an accurate enterprisewide
       inventory of installed software and licenses as required by Executive Orders, Department
       of the Treasury Directive 85-02, and IRM 10.8.2 and as recommended by ITIL and
       industry best practices. Using current inventory information the IRS does have can be a


                                                                                             Page 9
                       Desktop and Laptop Software License Management
                              Is Not Being Adequately Performed



       starting point for implementing a standard enterprise toolkit that feeds into an enterprise
       software inventory and central data repository.
Recommendation 6: Maintain data in the inventory that the IRS can use to more effectively
review software licensing agreements, purchases, deployment, usage, and other related aspects of
licensing to identify additional savings in software spending.
       Management’s Response: The IRS agreed with this recommendation with a slight
       modification. While the IRS is currently maintaining a software inventory, it will
       enhance this process by leveraging tools. Based on experience, there is no single tool
       that can discover, track, and manage software license deployment and usage. As such,
       the IRS will identify and implement a standard enterprise toolkit that will be consolidated
       and maintained in a central data repository. The IRS progress in this area resulted in
       reducing the IRS’s commercial off-the-shelf software portfolio from 2,723 applications in
       November 2012 to a current 548 by standardizing the Windows 7 portfolio. The IRS will
       leverage early progress towards its enterprise approach.
       Office of Audit Comment: The IRS does not have an accurate enterprisewide
       inventory of installed software and licenses as required by Executive Orders, Department
       of the Treasury Directive 85-02 and IRM 10.8.2 and as recommended by ITIL and
       industry best practices. Using current inventory information the IRS does have can be a
       starting point for implementing a standard enterprise toolkit that feeds into an enterprise
       software inventory and central data repository. Reducing the portfolio does not address
       our recommendation to maintain data in the inventory that the IRS can use to more
       effectively review software licensing agreements, purchases, deployment, usage, and
       other related aspects of licensing to identify additional savings in software spending.




                                                                                           Page 10
                       Desktop and Laptop Software License Management
                              Is Not Being Adequately Performed



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately managing
software licenses. To accomplish our objective, we:
I.     Performed electronic research to identify and review Government criteria and
       requirements and non-Government best practices for software license management.
       A. Identified Government criteria and requirements.
       B. Identified non-Government best practices from recognized organizations.
       C. Identified Government criteria/requirements and previous IRS software license
          management findings from Government Accountability Office and Treasury
          Inspector General for Tax Administration audit reports.
       D. Reviewed, analyzed, and summarized the criteria and requirements found that were
          relevant to the IRS’s management of software licenses.
II.    Determined if the IRS had developed adequate policies and procedures and roles and
       responsibilities for the management of software licenses.
       A. Determined if the IRS had an enterprise policy and procedures for software license
          management that were consistent with the criteria, requirements, and best practices.
       B. Determined if the IRS had roles and responsibilities for software license management
          that are consistent with the criteria, requirements, and best practices and that the IRS
          had assigned roles and responsibilities for all software license management
          procedures.
       C. Determined if the IRS’s policies and procedures and roles and responsibilities
          established a centralized, rather than decentralized, organization and structure for
          software license management.
III.   Determined if the IRS had a centralized licensing inventory and manages/maintains the
       inventory with software tools designed for license management.
       A. Determined if the IRS had a centralized inventory of its software assets, including
          licensing data.
       B. Determined if the IRS had adequately used software asset discovery tools and usage
          monitoring tools.


                                                                                          Page 11
                               Desktop and Laptop Software License Management
                                      Is Not Being Adequately Performed



                1. Determined how frequently the IRS performed software asset discovery and usage
                   scans and generated management reports.
                2. Determined if the IRS scans were capable of detecting various licensing
                   conditions.
                3. Determined if the IRS used software licensing reports from the discovery tool to
                   reconcile known software assets and licenses against discovery results and to
                   resolve exceptions or noncompliance with software licenses.
                4. Determined if the IRS used software license inventory data to better negotiate
                   software license purchases and maintenance agreements with vendors.
IV.        Determined if the IRS adequately managed software licenses on a sample of software
           products.
           A. To select a judgmental sample1 of software products for review, we began with a
              population of 975 Common Operating Environment software products as of
              April 4, 2012. We limited our sample to the Common Operating Environment and
              above-baseline software because such software is installed on workstations and
              laptops.
           B. We deleted from the list products that the IRS had not approved for installation at the
              present time, Government internally developed software, freeware, older versions of a
              software product when a newer version was being used, patches, and utilities related
              to the software products. This reduced the list to 372 software products from which
              to draw a judgmental sample.
           C. For the 372 products, we used several IRS sources to obtain data on the estimated
              number of users or licenses. We determined which was baseline software installed on
              all workstations or above-baseline software not installed on all workstations. For
              about 45 products, we also obtained data on the number of licenses bought and the
              purchase price.
           D. From the list of 372 products, we judgmentally selected 30 software products to
              sample as follows.
                1. Five products with at least 100,000 users or licenses were selected because we
                   believed large volumes could present license management difficulties.
                2. Fifteen products having 500 to 99,999 users or licenses were also selected
                   because we believed large volumes could present license management difficulties.



1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 12
                        Desktop and Laptop Software License Management
                               Is Not Being Adequately Performed



           3. Only three products having less than 500 licenses or users were selected to
              provide coverage and because we believed smaller volumes could present fewer
              license management difficulties.
           4. The four highest dollar value licensed products were selected because of the
              potential dollar impact if licenses were not adequately managed.
           5. Only three Common Operating Environment baseline products were selected
              because we believed if they are counted on all workstations it could present fewer
              license management difficulties.
       E. Performed the following on each of the selected software products.
           1. Requested the software licensing agreement.
           2. Reviewed the provided records used by the IRS to manage and track the
              deployment of software licenses.
           3. Determined the scope of the IRS’s software licensing management and tracking
              activities.
       F. On each of the selected software products, obtained additional documentation and
          interviewed IRS employees as necessary to substantiate the accuracy of the software
          licensing data being managed and tracked.
       G. On each of the selected software products, determined if the IRS is managing and
          tracking licenses.
       H. On each of the selected software products, determined how exceptions or
          noncompliance with software licenses are resolved.
       I. Determined if the software licensing data that is managed and tracked on each of the
          selected software products is shared with the Office of Procurement staff to help
          better negotiate software license purchases and maintenance agreements with
          vendors.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IT organization’s policies, procedures,
and processes for managing and tracking software licenses. We evaluated these controls by
interviewing IT organization management, identifying Federal requirements and industry best
practices for managing and tracking software licenses, and reviewing software license
management and tracking on a sample of software products.

                                                                                           Page 13
                      Desktop and Laptop Software License Management
                             Is Not Being Adequately Performed



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
John Ledford, Audit Manager
Richard Borst, Lead Auditor
Chanda Stratton, Senior Auditor
Kasey Koontz, Auditor




                                                                                     Page 14
                     Desktop and Laptop Software License Management
                            Is Not Being Adequately Performed



                                                                            Appendix III

                        Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Director, Operations Service Support OS:CTO:UNS
Director, Vendor Contract Management OS:CTO:SP:VCM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 15
                          Desktop and Laptop Software License Management
                                 Is Not Being Adequately Performed



                                                                                       Appendix IV

                                 Glossary of Terms

           Term                                               Definition
Applications Development       A part of the IRS IT organization responsible for building, testing,
Organization                   delivering, and maintaining integrated information applications systems
                               to support modernized systems and the production environment.
Best Practices                 Proven activities or processes that have been successfully used by
                               multiple organizations.
Chief Information Officer      As the principal interagency forum on Federal information technology,
Council                        the purpose of the Chief Information Officer Council is to foster
                               collaboration among Federal Government Chief Information Officers in
                               strengthening Governmentwide information technology management
                               practices.
Common Operating               A standardized, configured computer image on IRS workstation
Environment                    computers integrated with a set of standard software packages to support
                               the needs of all IRS employees.
Enterprise Operations          The part of the IRS IT organization that provides server and mainframe
Organization                   computing services for all IRS business entities and taxpayers.
Executive Orders               Legally binding orders given by the President, acting as the head of the
                               Executive Branch, to Federal Administrative Agencies. Executive
                               Orders are generally used to direct Federal agencies and officials in their
                               execution of congressionally established laws or policies.
Executive Order 13103,         Requires Federal agencies to develop software license management
Computer Software Piracy       policies and procedures. It also requires Federal agencies to prepare
                               inventories of software present on computers to help ensure that
                               software is used in compliance with copyright laws.
Executive Order 13589,         Requires Federal agencies to take inventory of their information
Promoting Efficient Spending   technology assets and ensure that they are not paying for unused or
                               underutilized installed software.
Forrester Research Inc.        A global research and advisory firm that provides research guidance to
                               the information technology industry.




                                                                                                 Page 16
                         Desktop and Laptop Software License Management
                                Is Not Being Adequately Performed




           Term                                               Definition
Government Accountability       The audit, evaluation, and investigative arm of Congress that provides
Office                          analyses, recommendations, and other assistance to help Congress make
                                informed oversight, policy, and funding decisions.
Information Technology          Provides guidelines for the use and management of software and
Infrastructure Library (ITIL)   licenses.
                                The ITIL is a widely accepted set of concepts and practices for
                                information technology service management derived from user and
                                vendor experts in both the private and public sectors. The ITIL focuses
                                on the key service management principles pertaining to service strategy,
                                service design, service transition, service operation, and continual
                                service improvement, with each principle being covered in a separate
                                ITIL core publication. Software asset management is a key process
                                described within the service transition core publication. The ITIL also
                                has a separate publication entitled Best Practice Software Asset
                                Management that covers software asset and license management best
                                practices in more depth than the core publication. ITIL best practices
                                recommend 1) the development of software license management
                                policies and procedures and roles and responsibilities; 2) a centralized,
                                enterprisewide management structure for software asset management;
                                3) the use of software license management tools; and 4) the creation and
                                maintenance of accurate enterprisewide inventories of software licenses.
Information Technology          Maturity levels refer to an IT organization’s ability to perform. An
Infrastructure Library          organization passes through five evolutionary levels as it becomes more
Maturity Levels                 competent:
                                Level 1: Initial – Focuses on technology and technology
                                excellence/experts.
                                Level 2: Repeatable – Focuses on products/services and operational
                                processes (e.g., Service Support).
                                Level 3: Defined – Focuses on the customer and proper service level
                                management.
                                Level 4: Managed – Focuses on business/information technology
                                alignment.
                                Level 5: Optimized – Focuses on value and the seamless integration of
                                information technology into the business and strategy making.
Information Technology          The IRS organization responsible for delivering information technology
Organization                    services and solutions that drive effective tax administration to ensure
                                public confidence.

                                                                                                 Page 17
                        Desktop and Laptop Software License Management
                               Is Not Being Adequately Performed




           Term                                               Definition
National Institute of           A part of the Department of Commerce that is responsible for
Standards and Technology        developing standards and guidelines for providing adequate information
                                security for all Federal Government agency operations and assets.
National Institute of           Requires that Federal agencies employ tracking systems, such as
Standards and Technology        specialized fully automated applications depending on the needs of the
Special Publication             organization, for software protected by quantity licenses to control
800-53, Recommended             copying and distribution and to help ensure that software is used in
Security Controls for Federal   accordance with licensing agreements.
Information Systems and
Organizations
Software License Agreement      The legal contract between the owner and purchaser of a piece of
                                software that establishes the purchaser’s rights. A software license
                                agreement provides details and limitations on where, how, how often,
                                and when the software can be installed and used and provides
                                restrictions that are imposed on the software. The agreement includes
                                the licensing model that will be used for defining and measuring the use
                                of the software. For example, a common simple license model could be
                                based on how many people can use the software and how many systems
                                the software may be installed on. Software companies also make special
                                license agreements for large business and Government entities that may
                                be different from those provided to the general consumer.
Treasury Directive              Requires that bureaus periodically scan their networks to detect and
Publication 85-01, Treasury     remove any unauthorized or unlicensed software.
IT Security Program
Treasury Directive 85-02,       Issued to implement Executive Order 13103 and requires that bureaus
Software Piracy Policy          establish and maintain an accurate software inventory to help ensure that
                                software is used in accordance with software license agreements.
User and Network Services       A part of the IRS IT organization established in April 2012 that
Organization                    combined the End User Equipment and Services organization and the
                                Enterprise Networks organization. End User Equipment and Services
                                provides information technology products and services to IRS end
                                users. It is the single point of accountability for personal computing,
                                help desk support, asset management, local area networks, and
                                telephone communications support. The Enterprise Networks
                                organization provides communications technologies for internal and
                                external customers and manages the design and engineering of the IRS’s
                                telecommunications environment.




                                                                                                 Page 18
       Desktop and Laptop Software License Management
              Is Not Being Adequately Performed



                                                Appendix V

Management’s Response to the Draft Report




                                                        Page 19
Desktop and Laptop Software License Management
       Is Not Being Adequately Performed




                                                 Page 20
Desktop and Laptop Software License Management
       Is Not Being Adequately Performed




                                                 Page 21
Desktop and Laptop Software License Management
       Is Not Being Adequately Performed




                                                 Page 22
